U.S. Department of                      The Inspector General   Office of Inspector General
Transportation                                                  Washington, DC 20590
Office of the Secretary
of Transportation




August 5, 2010



The Honorable John L. Mica
Ranking Member
Committee on Transportation and Infrastructure
U.S. House of Representatives
Washington, DC 20515

The Honorable Thomas Petri
Ranking Member
Subcommittee on Aviation
Committee on Transportation and Infrastructure
U.S. House of Representatives
Washington, DC 20515

Dear Ranking Members Mica and Petri:

This letter is in response to your June 10, 2009, roundtable discussion regarding the
air traffic control (ATC) system's vulnerability to cyber attack. During the meeting,
you requested that my office review the Federal Aviation Administration’s (FAA's)
progress in implementing the five recommendations from our May 4, 2009, report:
Review of Web Applications Security and Intrusion Detection in Air Traffic Control
Systems.

In short, FAA has implemented all recommendations except one––deployment of
intrusion detection devices to protect ATC system operations. The following table
summarizes the status of each recommendation.
                                                                                                                       2


                             Recommendations                            Status
        1. Ensure that all Web applications used in the Air Traffic Complete
           Control (ATC) systems are configured in compliance with
           Government security standards.
        2. Strengthen the patch management process by (a) identifying Complete
           Web applications with known vulnerabilities, and (b)
           promptly installing relevant security patches in a timely
           manner.
        3. Take immediate action to correct high-risk vulnerabilities Complete
           and establish a timetable for remediation of all remaining
           vulnerabilities identified during this audit.
        4a. Resolve differences with the Cyber Security                                             Complete
            Management Center (CSMC).
        4b. Establish a timetable for deploying intrusion-detection                                 Open
            system (IDS) monitoring devices covering local area
            networks at all ATC facilities.
        5. In conjunction with CSMC officials, identify the                                         Complete
            information needed for remediation and establish
            procedures to ensure timely remediation of cyber incidents
            based on incident criticality as assessed by CSMC.

FAA originally agreed to develop an IDS deployment strategy for all ATC facilities
by December 2009 and complete deployment of IDS capabilities at facilities housing
the ARTS IIIE 1 by February 2010. Currently, FAA has completed installation at 7 of
the 11 ARTS IIIE facilities. FAA has delayed deploying the remaining four ARTS
IIIE facilities until January 2011 because critical ARTS IIIE system-wide software
upgrades have a priority over IDS installation. FAA has not yet established a
timetable for deploying IDS at the remaining ATC facilities. Without IDS
capabilities, FAA cannot effectively monitor ATC systems for possible cyber attacks
or take action to stop them. We have discussed our concerns with FAA’s action plan
with the Chief Information Officers for the Department and FAA and have discussed
the significant delays in implementing IDS at remaining facilities with Air Traffic
Organization (ATO) senior management. ATO management is developing an
implementation strategy to address this issue but could not provide a timetable beyond
the ARTS IIIE facilities. We will continue to monitor FAA’s progress in this area and
keep you apprised of any significant changes.




1
    Automated Radar Terminal System IIIE is a sophisticated computer system used by controllers at major U.S. airports to
    detect, track, and predict aircraft positions.
                                                                                3


Thank you for your inquiry and interest. If you have any questions or need further
information, please contact me at (202) 366-1959 or Louis King, Acting Assistant
Inspector General for Financial and Information Technology Audits, at (202) 366-
1407.


Sincerely,




Calvin L. Scovel III
Inspector General
